No. 19-968

In The Supreme Court of The United States
CHIKE UZUEGBUNAM, ET AL. v. STANLEY C. PRECZEWSKI, ET AL.
AFFIDAVIT OF SERVICE
I, Shelly N. Gannon, being eighteen years or older, do certify under penalty of
perjury that the following is true and correct. On this, the 25th day of November,
2020, I filed forty (40) copies of the foregoing petition with the United States Supreme
Court electronically and via UPS Ground Transportation, and served via electronic
mail and three (3) copies of the same, via UPS Ground Transportation, to the following:
Kristen Kellie Waggoner
Counsel of Record
John J. Bursch
Alliance Defending Freedom
440 First Street, N.W., Suite 600
Washington, DC 20001
kwaggoner@adflegal.org
jbursch@adflegal.org

Andrew Alan Pinson
Counsel of Record
Office of the Georgia Attorney General
40 Capital Square SW
Atlanta, GA 30334-1300
apinson@law.ga.gov

Counsel for Petitioners

Counsel for Respondents

Shelly N. Gannon
GibsonMoore Appellate Services, LLC
206 East Cary Street
P.O. Box 1460 (23218)
Richmond, VA 23219
(804) 249-7770 – Telephone
shelly@gibsonmoore.net

For:
Lisa Soronen
Executive Director
State & Local Legal Center
444 North Capitol Street, N.W.
Suite 515
Washington, D.C. 20001
(202) 434-4845
lsoronen@sso.org

Patrick M. Kane
(counsel of record)
Kip D. Nelson
Fox Rothschild LLP
230 N. Elm Street
Suite 1200
Greensboro, NC 27401
(336) 378-5200
PKane@foxrothschild.com
KNelson@foxrothschild.com
Christopher McNamara
Fox Rothschild LLP
345 California Street
Suite 2200
San Francisco, CA 94104
(415) 539-3357
CMcNamara@foxrothschild.com

Counsel for Amici Curiae
Signed and subscribed before me on this the 25th day of November, 2020.

